HHS/OIG, Audit -"Review of Ambulance Services Provided by American Medical Response
of Massachusetts, Inc.,"(A-01-04-00502)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Ambulance Services Provided by
American Medical Response of Massachusetts, Inc.," (A-01-04-00502)
April 17, 2006
Complete
Text of Report is available in PDF format (331 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Medicare payments for ambulance transports and services
provided by American Medical Response of Massachusetts, Inc., (AMR) met Medicare reimbursement
requirements. For 43 of 100 sampled beneficiaries, medical reviewers determined that AMR
received $11,690 in Medicare payments for ambulance transports for the period July 1 through
December 1, 2002.
We recommended that AMR develop better controls and work with the Massachusetts carrier
to reimburse the Medicare program for the estimated overpayment.  In its response to
our draft report, AMR stated that it has adequate controls in place as a result of its compliance
program established under its Corporate Integrity Agreement.  AMR agreed with $2,357,
or about 20 percent, of our sampled errors.